No. 19-1014

In the Supreme Court of the United States
__________________
TERESA BERRY,
Petitioner,
v.
DELAWARE COUNTY SHERIFF’S OFFICE,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________
BRIEF IN OPPOSITION
__________________

Daniel T. Downey
Counsel of Record
Fishel Downey Albrecht
& Riepenhoff LLP
7775 Walton Parkway, Suite 200
New Albany, Ohio 43054
(614) 221-1216
ddowney@fisheldowney.com
Counsel for Respondent

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether compelling reasons exist to exercise
jurisdiction on writ of certiorari where Petitioner
raises only an alleged conflict between the decision
of the United States Court of Appeals for the Sixth
Circuit in this matter and two, factually distinct
cases issued within the same Circuit.
2. Whether the United States Court of Appeals for the
Sixth Circuit correctly concluded that Respondent
was not liable under the Eighth Amendment for an
alleged failure to train its officers to recognize and
address serious medical conditions where the
arresting officer immediately secured the care of a
licensed practical nurse and corrections officers
subsequently relied upon the medical judgments of
the medical professionals who provided continued
medical attention.

ii
CORPORATE DISCLOSURE STATEMENT
Respondent, the Delaware County Sheriff’s Office,
is a government agency and, pursuant to United States
Supreme Court Rule 29.6, is exempt from having to
provide a corporate disclosure statement.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
RELEVANT CONSTITUTIONAL PROVISION . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
Training by Respondent . . . . . . . . . . . . . . . . . . . . 8
Procedural History . . . . . . . . . . . . . . . . . . . . . . . . 9
ARGUMENTS FOR DENYING CERTIORARI . . . 11
There is no compelling reason to exercise
jurisdiction on writ of certiorari. . . . . . . . . . . . . 11
The decision below was correctly decided.. . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iv
TABLE OF AUTHORITIES
CASES
Alexander v. CareSource,
576 F.3d 551 (6th Cir. 2009). . . . . . . . . . . . . . . . . 5
Allapattah Servs. v. Exxon Corp.,
362 F.3d 739 (11th Cir. 2004). . . . . . . . . . . . . 1, 12
Anderson v. Jones,
No. 1:17-cv-327, 2020 U.S. Dist. LEXIS 28015
(S.D. Ohio, Feb. 19, 2020). . . . . . . . . . . . . . . . . . 14
Brawner v. Scott County,
No. 3:17-cv-00108, 2019 U.S. Dist. LEXIS 85020
(E.D. Tenn., May 21, 2019), app. filed, No. 195623 (6th Cir., June 11, 2019) . . . . . . . . . . . . . . . 14
City of Canton v. Harris,
489 U.S. 378 (1989). . . . . . . . . . . . . . . . . . . . . . . 14
Graham v. County of Washtenaw,
358 F.3d 377 (6th Cir. 2004). . . . . . . . . . . . . . 9, 15
Hamilton-Brown Shoe Co. v. Wolf Bros. & Co.,
240 U.S. 251 (1916). . . . . . . . . . . . . . . . . . . . 10, 11
Hubbard v. United States,
514 U.S. 695 (1995). . . . . . . . . . . . . . . 1, 10, 11, 12
Jimenez v. Hopkins County,
No. 4:11-cv-00033, 2014 U.S. Dist. LEXIS 3722
(W.D. Ky. Jan., 13, 2014) . . . . . . . . . . . . . . passim
Miller v. Calhoun County,
408 F.3d 803 (6th Cir. 2005). . . . . . . . . . . . . . . . 15

v
Monell v. New York City Department of Social
Services,
436 U.S. 658 (1978). . . . . . . . . . . . . . . . . . . . . . . . 3
Petty v. County of Franklin,
478 F.3d 341 (6th Cir. 2007). . . . . . . . . . . . . . . . . 2
Ronaye v. Ficano,
No. 98-1135, 1999 U.S. App. LEXIS 4579 (6th
Cir. Mar. 15, 1999) . . . . . . . . . . . . . . . . . . . . . 9, 15
Shadrick v. Hopkins County,
805 F.3d 724 (6th Cir. 2015). . . . . . . . . . . . passim
Spears v. Ruth,
589 F.3d 249 (6th Cir. 2009). . . . . . . . . . . . . . 9, 15
Winkler v. Madison County,
893 F.3d 877 (6th Cir. 2018). . . . . . . . . . . 9, 14, 15
CONSTITUTION
U.S. Const. amend. VIII. . . . . . . . . . . . . . . . . . . 1, 3, 9
STATUTES AND RULES
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Fed. R. Civ. P. 56(c) . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 16
Sup. Ct. R. 10(a) . . . . . . . . . . . . . . . . . . . . . . . 9, 11, 12
Sup. Ct. R. 24.1(a) . . . . . . . . . . . . . . . . . . . . . . . . . . 14

1
RELEVANT CONSTITUTIONAL PROVISION
The Eighth Amendment to the Constitution
provides that “[e]xcessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishments inflicted.” U.S. Const. amend. VIII.
INTRODUCTION
None of the four questions presented by Petitioner
offer a compelling reason to grant review of the lower
court decisions in this matter. Petitioner identifies only
an alleged conflict between the decision of the United
States Court of Appeals for the Sixth Circuit in Case
No. 19-3096 and two prior decisions issued within the
Sixth Circuit—one of which is an unpublished district
court decision. The conflict allegedly created by the
Sixth Circuit’s decision in Case No. 19-3096 does not
satisfy the “high degree of selectivity [ ] enjoined upon
[this Court]” in granting a petition for a writ of
certiorari because the alleged conflict is not “with a
decision of another court of appeals.” Hubbard v.
United States, 514 U.S. 695, 720 (1995) (Roberts, C.J.,
dissenting); see also Allapattah Servs. v. Exxon Corp.,
362 F.3d 739, 752 (11th Cir. 2004) (“Of course, the mere
existence of even a gaping interpretive chasm has
never been sufficient in itself to assure of grant of
certiorari from the Supreme Court.”). Given the
number of petitions for certiorari received every Term,
the requirement that the alleged conflict be with
another court of appeals “is a necessary concomitant of
the limited capacity in this Court.” Id.

2
Furthermore, the alleged conflict does not even
exist. Petitioner’s arguments for a writ of certiorari are
based on a flawed understanding of Jimenez v. Hopkins
County, No. 4:11-cv-00033, 2014 U.S. Dist. LEXIS 3722
(W.D. Ky. Jan., 13, 2014) and Shadrick v. Hopkins
County, 805 F.3d 724 (6th Cir. 2015), as well as the
record in the underlying matter. Because the Jimenez
and Shadrick cases are factually distinguishable from
this matter, they are not at odds with the Sixth
Circuit’s decision in Case No. 19-3096. Consequently,
the Petition for a Writ of Certiorari should be denied.
The decision below was correctly decided and does
not call for Supreme Court review. As an initial matter,
Respondent, as a county sheriff’s office, is not amenable
to suit. See Petty v. County of Franklin, 478 F.3d 341,
347 (6th Cir. 2007). The district court granted Petitioner
leave to substitute the elected sheriff for the county
sheriff’s office, explicitly instructing Petitioner to “file
her Second Amended Complaint within SEVEN DAYS
of this Opinion and Order.” (Pet. App. 4a) (emphasis in
original) The district court’s instruction was
accompanied by the following warning: “Failure to
comply with this Opinion and Order will result in
the Amended Complaint being dismissed,
without additional notice, for naming a party
that is not sui juris.” (Id.) (emphasis in original)
Despite the warning, Petitioner did not meet the
deadline to substitute into her case a suable defendant,
and the district court granted Respondent summary
judgment (Pet. App. 23a) The district court still
engaged in an alternative analysis, as if Petitioner
named an entity subject to suit, and determined that
Petitioner failed to establish municipal liability under

3
Monell v. New York City Department of Social Services,
436 U.S. 658 (1978) and its progeny.
The Sixth Circuit, in its de novo review, agreed with
the district court that Petitioner “failed to name a
suable party.” (Pet. App. 6a) The Sixth Circuit also set
aside Petitioner’s pleading mistakes and fully analyzed
the sole claim Petitioner pursued on appeal: An Eighth
Amendment failure to train claim. (Id.) Ultimately, the
Sixth Circuit correctly concluded that Respondent
exhibited no deliberate indifference to the training of
its officers since the arresting officer “perceived
something might be medically wrong with [the
decedent],” medical care was immediately secured for
the decedent, and corrections staff subsequently relied
upon the medical judgments of the medical
professionals who provided the decedent with
continued attention. (Pet. App. 9a, 16a, 18a) As such,
the medical training received by officers working at a
jail with on-site medical professionals 24 hours a day,
seven days a week that, at a minimum, includes CPR
and First Aid is not constitutionally deficient. (Pet.
App. 15a)
The training at issue in the Shadrick case relied
upon by Petitioner concerns licensed practical nurses
rather than officers; therefore, the Shadrick holding
has no bearing on the Sixth Circuit’s decision in the
underlying matter. Relatedly, the Jimenez case, as a
Western District of Kentucky case, is not binding upon
either the Southern District of Ohio or the Sixth
Circuit. Plus, the facts surrounding the municipal
liability claim in Jimenez are significantly different

4
than those found in this record. The Petition for a Writ
of Certiorari should thus be denied.
STATEMENT OF THE CASE
Petitioner’s request for a grant of certiorari is laden
with factual errors and misunderstandings of law.
Important to the disposition of Petitioner’s request are
the following facts: The decedent was arrested at her
home, pursuant to a warrant, by Deputy Darren
Mohnsen and transported to the jail operated by
Respondent. Authenticated video footage from the jail
documents that the decedent walked into the facility
unassisted and Deputy Mohnsen immediately asked for
a nurse to evaluate the decedent. Within minutes of the
decedent’s arrival at the jail, a licensed practical nurse
attended to the decedent, and Deputy Mohnsen relayed
to the nurse the information he possessed about the
decedent’s health status. The nurse performed a
medical screening and determined that the decedent
did not present a medical problem that required
ambulatory care or hospitalization. Consequently, a
nurse, prior to the decedent’s acceptance into the jail,
made a rudimentary medical judgment that any
symptoms presented by the decedent could be
adequately addressed at the jail.
The authenticated video footage of the decedent’s
booking, which includes audio, documents the absence
of any complaint from the decedent or request for
medical attention. The footage also documents the
decedent’s ability to remove her clothing and complete
the booking process without issue. Objectively, the
decedent did not exhibit symptoms of a serious medical
need.

5
While the decedent displayed no signs of a serious
medical need, she was still housed in a holding cell in
the jail’s booking area where she received nearconstant monitoring because the decedent was
suspected of bringing narcotics into the jail during her
prior incarcerations. The decedent was placed in a “dry
cell,” whereby the decedent could not flush the toilet or
run water from the sink. Importantly, the video footage
and deposition testimony confirms that the decedent
always had a pitcher full of water available, the pitcher
was routinely refilled with water by corrections staff,
and the decedent consumed water. Petitioner’s
assertions that Respondent failed to monitor the
decedent for drug withdrawal is irrelevant, given that
the decedent’s “cause of death was peritonitis.”
(Petition at 20)
Despite being corrected at both the trial and
appellate court level, Petitioner continues to contend
that the decedent “had an uncontrollable bowel
movement” during intake and endured long stretches
of time without nurse or corrections officer interaction.
(Petition at 17-18) Such contentions are wholly
disproven by the record. As for the alleged
“uncontrollable bowel movement,” Petitioner accedes
that “[t]here is no information in the record, other than
the recording of the call for assistance in the shower
and Officer Coontz[’s] testimony related to this
incident.” (Id.). In effect, Petitioner admits the only
support for the alleged “uncontrollable bowel
movement” is contained in inadmissible evidence: an
unauthenticated audio recording of unidentifiable
voices. See Fed. R. Civ. P. 56(c) and (e); Alexander v.
CareSource, 576 F.3d 551, 558 (6th Cir. 2009).

6
Corrections Officer Coontz testified at deposition that
she could not quite discern what was said in the audio
recording, but she believed the recorded voice “may
have said shut herself in the shower.” (R#37-6 Pg. ID
1676 Lns 2-3) Corrections Officer Coontz further
explained that a fellow officer may have been the
subject of the recording “[b]ecause if we go in there,
we’re also stuck in until someone opens the door,
because the lock is on the outside.” (Id. at lns 4-6) The
recording does not identify the decedent as the person
“in the shower,” and Petitioner is without support for
her allegation that the decedent manifested a serious
medical need through an “uncontrollable bowel
movement.”
With respect to the frequency of the decedent’s
interactions with nursing and corrections staff, the
record establishes that the decedent received almost
non-stop monitoring due to her housing location in the
booking officers’ direct line of sight. The decedent, after
receiving her lunch on February 20, 2016,
communicated with a female corrections officer, exited
her cell to make several phone calls in the booking
area, and, once back inside her cell, signaled to a
corrections officer through the cell window to obtain a
cup of water. The nurse who conducted the initial
medical screen made at least one check on the decedent
after the decedent’s intake on February 20, 2016. The
decedent also received a dinner tray, followed by
medication pass by a nurse at approximately 8:00 p.m.
Several observation checks were also conducted by
various corrections officers, with at least one check
completed every 60 minutes.

7
In the early morning hours of February 21, 2016, a
nurse addressed the single medical complaint voiced by
the decedent during her approximately 35 hours at the
jail. Petitioner’s insistence that “[t]here was no
interaction between [the decedent] and the corrections
officers or nursing staff until 8:20 the next evening” is
amiss. (Petition at 18) The decedent received her
mediations at approximately 8:00 a.m. on February 21,
2016. Corrections officers continued to observe the
decedent at least once every 60 minutes, as reflected in
the video footage, and the decedent’s activity inside her
cell throughout February 21, 2016 is captured.
A sergeant conducted a well-being check on the
decedent at approximately 7:20 p.m. on February 21,
2016. When the sergeant opened the cell door and
asked how the decedent was doing, the decedent
responded that she was “fine” and nothing about the
decedent’s appearance indicated a need for medical
attention. Several minutes after the sergeant’s wellbeing check, another corrections officer conducted a
visual check on the decedent.
A nurse and corrections officer then attended to the
decedent slightly after 8:00 p.m. on February 21, 2016,
to administer the decedent’s medications. At that point,
the decedent expressed that her tongue felt abnormal
and she began to show signs of a serious medical need.
Two nurses quickly provided care, and a corrections
officer called for an emergency squad at approximately
8:14 p.m. Paramedics arrived less than 10 minutes
later, took over life-saving measures, and transported
the decedent by ambulance to the hospital where the

8
decedent was tragically pronounced dead at 9:11 p.m.
on February 21, 2016.
Training by Respondent
The record here reveals that Respondent’s officers
are well-trained. Corrections officers must complete the
Ohio Peace Officer Training Commission’s corrections
academy, which includes medical training. The
corrections academy specifically teaches officers the
signs and symptoms of inmate distress, as well as what
to look for at intake. Each of Respondent’s newly hired
officers must read, acknowledge, and understand
Respondent’s policies. There is also a field training
officer program at the jail, where new corrections
officers shadow a senior officer on all three shifts. As
part of the program, new officers are observed by the
sergeants and trained on the jail’s policies and
procedures. Corrections officers are trained by medical
staff on the basic medical intake procedures.
Petitioner’s brash contention that “[t]here is no
evidence the employees were ever trained to follow
those policies” is easily disproven by the record.
(Petition at 30).
Respondent also coordinates quarterly or semiannual refresher trainings on when officers need to
notify the medical staff. In addition, there are online
training requirements and in-services conducted by
state-certified instructors. Deputy Mohnsen was even
certified as a first responder.
Petitioner’s sole claim—failure to train—is defeated
by the simple fact that Deputy Mohnsen immediately
secured the attention of a nurse upon the decedent’s

9
arrival at the jail. The record demonstrates that
Respondent trains its officers to both recognize the
signs of a medical emergency and identify when a
medical professional needs to be contacted. The
corrections officers’ subsequent reliance on the medical
judgments of the medical professionals falls squarely
within Eighth Amendment case law. See Spears v.
Ruth, 589 F.3d 249, 255 (6th Cir. 2009); Graham v.
County of Washtenaw, 358 F.3d 377, 384 (6th Cir. 2004),
citing Ronaye v. Ficano, No. 98-1135, 1999 U.S. App.
LEXIS 4579, *3 (6th Cir. Mar. 15, 1999). Moreover, in a
case decided after the decedent’s death but prior to the
district court’s decision below, the Sixth Circuit
rejected a contention akin to Petitioner’s claim in this
matter. See Winkler v. Madison County, 893 F.3d 877,
899-901 (6th Cir. 2018). The lower courts ruled in
accordance with “the accepted and usual course of
judicial proceedings,” and Petitioner’s argument for a
grant of certiorari falls flat. Sup. Ct. R. 10(a).
Procedural History
In launching her case in the United States District
Court for the Southern District of Ohio, Petitioner filed
her original complaint naming Respondent and six
John Doe officers. Petitioner filed an amended
complaint six months later, dismissing the John Doe
officers and adding the private, third-party corporation,
Corrections Healthcare Companies, Inc. (“CHC”), that
was contracted to provide medical services to inmates
at Respondent’s jail. In August 2018, CHC was
dismissed from the case, with prejudice, in light of
settlement. (Pet. App. 26a) Any question over the
medical care provided under Respondent’s contract

10
with CHC by the physician or nurses employed by CHC
is precluded at this stage.
The district court, in ruling on Respondent’s motion
for summary judgment, managed to decipher
Petitioner’s claims and distinguished the two cases
Petitioner still argues are in conflict with the lower
courts’ decisions. (Pet. App. 42a, 44a) The district
court determined that Petitioner presented no evidence
in support of her claims and Respondent or, in the
alternative, the elected county sheriff, is entitled to
judgment as a matter of law. (Pet. App. 23a, 46a)
Petitioner pursued a single claim against
Respondent on appeal: failure to train. She specifically
challenged the district court’s alleged failure to
consider certain evidence and the Jimenez and
Shadrick cases. The Sixth Circuit, in its de novo
review, agreed with the district court’s grant of
summary judgment to Respondent, explaining that the
“inadequacy-of-training analysis” within the Shadrick
case, which was an appeal from the Western District of
Kentucky Jimenez case, “concerned the adequacy of
training provided to licensed practice nurses, not police
officers.” (Pet. App. 10a) The issues identified in the
Petition for a Writ of Certiorari have neither merit nor
the “peculiar gravity and general importance” needed
for this Court’s review; therefore, the Petition for a
Writ of Certiorari should be denied. Hamilton-Brown
Shoe Co. v. Wolf Bros. & Co., 240 U.S. 251, 258 (1916);
see also Hubbard, 514 at 720.

11
ARGUMENTS FOR DENYING CERTIORARI
The Petition for a Writ of Certiorari should be
denied because there is neither an identified division
amongst United States courts of appeal nor a
“depart[ure] from the accepted and usual course of
judicial proceedings.” Sup. Ct. R. 10(a) The decision
below was correctly decided and does not call for this
Court’s review. Given that the “jurisdiction to review
the judgments and decrees of the Circuit Court of
Appeals by certiorari . . . is a jurisdiction to be
exercised sparingly, and only in cases of peculiar
gravity and general importance, or in order to secure
uniformity of decision,” Petitioner’s request for
certiorari should be denied. Hamilton-Brown, 240 U.S.
at 258.
There is no compelling reason to exercise
jurisdiction on writ of certiorari.
Petitioner does not meet any of the standards
embodied in United States Supreme Court Rule 10 to
warrant a grant of certiorari. See Hubbard, 514 U.S. at
720. No “conflict with another United States court of
appeals” is alleged; rather, only a supposed conflict
between the Sixth Circuit’s decision below and the
Sixth Circuit’s decision in the Shadrick case, which
was an appeal taken from the Jimenez case, is cited1.
First, the supposed conflict, even if it existed, does not
impel a grant of certiorari. Chief Justice Roberts has
clarified that a United States court of appeals decision
will not be reviewed unless it conflicts with a decision
1

Petitioner did not seek an en banc determination under Fed. R.
App. 35.

12
from another United States court of appeals. Hubbard,
514 U.S. at 720. “This fact is a necessary concomitant
of the limited capacity in this Court,” as thousands of
petitions for certiorari are received “every Term” with
“only a tiny fraction” able to be granted. Id.
Petitioner locates no case outside the Sixth Circuit
that conflicts with the decision below. “Of course, the
mere existence of even a gaping interpretive chasm has
never been sufficient in itself to assure a grant of
certiorari from the Supreme Court” since “only
‘important matters’ or ‘important questions of federal
law’” will be entertained. Allapattah Servs. v. Exxon
Corp., 362 F.3d 739, 752 (11th Cir. 2004), quoting Sup.
Ct. R. 10(a) (dissenting opinion urging a grant of
certiorari to resolve a jurisdictional controversy). Here,
neither a Circuit split nor “an important federal
question” has been raised by Petitioner; thus, the
Petition for a Writ of Certiorari should be denied.
Second, the alleged conflict cited by Petitioner does
not exist. Petitioner’s arguments for a grant of
certiorari are based on a flawed understanding of the
Shadrick and Jimenez cases. As succinctly provided by
Circuit Judge Griffin in the case below, “Shadrick’s
inadequacy-of-training analysis concerned the
adequacy of training provided to licensed practical
nurses, not police officers.” (Pet. App. 10a) Shadrick v.
Hopkins County, 805 F.3d 724 (6th Cir. 2015) is an
appeal from Jimenez v. Hopkins County, No. 4:11-cv00033, 2014 U.S. Dist. LEXIS 3722 (W.D. Ky., Jan. 13,
2014), and Shadrick concerns only the grant of
summary judgment in favor of the “private, for-profit
corporation” that was contracted “to provide medical

13
services to inmates housed” at a Kentucky county
detention center. Shadrick, 805 F.3d at 728. Because
corrections officers cannot be held to the same
standards as certified nurses, Shadrick has no bearing
on the decision below. (Pet. App 10a)
Moreover, the Jimenez case denied summary
judgment to a county where jailers who were “the only
persons in somewhat regular and direct contact with
the inmates” received no policies or training “as to
what constitutes a medical emergency, what
constitutes a medical symptom or condition that should
be reported to medical, and what to do in the event that
the medical staff does not respond.” Jimenez, 2014 U.S.
Dist. LEXIS 3722, at *49, 54. The undisputed facts of
the underlying matter are dissimilar from those in
Jimenez in significant ways: (1) Respondent’s jail is
staffed with on-site medical professionals 24 hours a
day, seven days a week; (2) Respondent issues and
provides training on its policies concerning medical
emergencies and when to contact medical staff; and
(3) Deputy Mohnsen “perceived that something might
be medically wrong with [the decedent], contacted
nursing staff, and “the nurses had multiple
interactions with [the decedent].” (Petition at 6-7; Pet.
App. 9a, 15a, 16a) Petitioner’s allegation of a conflict
demanding Supreme Court review is unfounded.
Third, Petitioner does not provide any information
to support her conclusory allegation that the decision
below “departed from the accepted and usual course of
judicial proceedings.” (Petition at 21) It is also worth
noting that Petitioner may not later “raise additional
questions or change the substance of the questions

14
already presented” in her Petition for a Writ of
Certiorari. Sup. Ct. R. 24.1(a) While not raised by
Petitioner, resolution of Petitioner’s request for
certiorari does not require this Court’s decision on
“whether finding a municipality liable under §1983
requires proof that an individual defendant committed
a constitutional violation.” (Pet. App. 7a) See Anderson
v. Jones, No. 1:17-cv-327, 2020 U.S. Dist. LEXIS
28015, *28 (S.D. Ohio, Feb. 19, 2020), citing Brawner v.
Scott County, No. 3:17-cv-00108, 2019 U.S. Dist. LEXIS
85020 (E.D. Tenn., May 21, 2019), app. filed, No. 195623 (6th Cir., June 11, 2019). Because both the Sixth
Circuit and district court assumed arguendo that
Petitioner “made whatever showings are necessary on
this issue” and still concluded that Respondent was
entitled to judgment as a matter of law, this case is not
the appropriate one for this Court to explore the
question of whether municipal liability under 42 U.S.C.
§ 1983 is always contingent on a finding of individual
liability. (Pet. App. 7a, 28a). The Petition for a Writ of
Certiorari should thus be denied.
The decision below was correctly decided.
The decision below does not warrant Supreme Court
review because it was correctly decided. Beyond
Petitioner’s pleading mistakes, which provided a
sufficient basis for the grant of summary judgment to
Respondent, Petitioner fails to show a municipal policy
of inadequate training in combination with a direct
causal link between the policy and the alleged
constitutional deprivation. See City of Canton v.
Harris, 489 U.S. 378, 385 (1989); Winkler v. Madison
County, 893 F.3d 877, 901 (6th Cir. 2018). Regardless of

15
whether the claim on which Petitioner seeks this
Court’s review is taken against the county sheriff’s
office or the elected sheriff, himself, the record reveals
no unconstitutional failure to train.
The officers’ training that Petitioner challenges,
which does not encompass the totality of the officers’
training, has previously been deemed by the Sixth
Circuit to pass constitutional muster. See Winkler, 893
F.3d at 903; Miller v. Calhoun County, 408 F.3d 803
(6th Cir. 2005). Plus, Respondent’s jail “has even more
in-person medical coverage; it has nursing coverage 24
hours a day, seven days a week.” (Pet. App. 15a)
Deputy Mohnsen’s “conduct was precisely the opposite
of deliberate indifference,” as he immediately
“contacted a licensed practical nurse and conveyed that
he believed that [the decedent] was in questionable
health.” (Pet. App. 18a) Petitioner does not identify
another time during the decedent’s approximately 35hour incarceration when a corrections officer should
have consulted a nurse but did not. The record proves
that “the nurses had multiple interactions with [the
decedent],” and case law confirms that officers are
entitled to rely on a jail nurse’s medical assessment.
(Pet. App. 16a) See Spears v. Ruth, 589 F.3d 249, 255
(6th Cir. 2009); Graham v. County of Washtenaw, 358
F.3d 377, 384 (6th Cir. 2004), citing Ronaye v. Ficano,
No. 98-1135, 1999 U.S. App. LEXIS 4579, *3 (6th Cir.
Mar. 15, 1999). Ultimately, there is no compelling
reason to grant certiorari, and the Petition for a Writ of
Certiorari should be denied.

16
CONCLUSION
Respondent respectfully requests that the Petition
for a Writ of Certiorari be denied. The sole identified
conflict allegedly presented by the decision below
involves only cases within the Sixth Circuit; therefore,
Petitioner does not even allege a sufficient conflict
under United States Supreme Court Rule 10. Further,
the conflict does not, in fact, exist, given the factual
distinctions between the decision below and the
Shadrick and Jimenez cases to which Petitioner clings.
Because the decision below was correctly decided, in
accordance with controlling case law, there is no
departure from the accepted and usual course of
judicial proceedings, and the Petition for a Writ of
Certiorari should be denied.
Respectfully submitted,
Daniel T. Downey
Counsel of Record
Fishel Downey Albrecht & Riepenhoff LLP
7775 Walton Parkway, Suite 200
New Albany, Ohio 43054
(614) 221-1216
ddowney@fisheldowney.com
Counsel for Respondent

